CERTIFICATE OF SERVICE
No. 20-639
CALVARY CHAPEL DAYTON VALLEY,
Petitioner,
v.
STEVE SISOLAK, in his official capacity as
Governor of Nevada, et al.,
Respondents.
I, Gordon D. Todd, do hereby certify that, on this tenth day of December,
2020, I caused a copy and an electronic copy of the Brief of Religious Organizations
as Amici Curiae in Support of Petitioner in the foregoing case to be served by first
class mail, postage prepaid, and by email, on the following parties:
DAVID A. CORTMAN
Alliance Defending Freedom
1000 Hurricane Shoals Road, N.E.
Suite D-1100
Lawrenceville, GA 30043
dcortman@adflegal.org
(770) 339-0774
Counsel for Petitioner

AARON D. FORD, Attorney General
CRAIG A. NEWBY, Deputy Solicitor General
Office of the Nevada Attorney General
555 East Washington Avenue
Suite 3900
Las Vegas, NV 89101
cnewby@ag.nv.gov
(702) 486-3420
Counsel for Respondents Steve Sisolak, in his
official capacity as Governor of Nevada, and
Aaron Ford, in his official capacity as
Attorney General of Nevada
BRIAN HARDY
KATHLEEN WILDE
Marquis Aurbach Coffing
10001 Park Run Drive
Las Vegas, NV 89145
bhardy@maclaw.com
kwilde@maclaw.com
(702) 382-0711
Counsel for Respondent Frank Hunewill, in
his official capacity as Sheriff of Lyon County
/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

